No.
October Term, 2020
In the

Supreme Court of the United States
Michael Adkisson,
Petitioner,
v.
Nevada,
Respondent.
On Petition for Writ of Certiorari to the
Nevada Supreme Court
Proof of Service

Rene L. Valladares
Federal Public Defender of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
Jonathan_Kirshbaum@fd.org
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Attorneys for Petitioner
*Counsel of Record

I, Jonathan Kirshbaum, an attorney who is authorized to file a Petition for Writ of
Certiorari on behalf of Michael Adkisson, hereby certify that all parties required to be
served have been served on this 25th day of February, 2021, in accordance with Rule
28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari, Appendix, and
Motion for Leave to Proceed In Forma Pauperis by sending it first class mail to Charles
Thoman, Chief Deputy District Attorney, Office of the Clark County District Attorney,
Regional Justice Center, 200 Lewis Avenue, P.O. Box 552212, Las Vegas, NV 89155-2212.
An electronic copy was sent, on consent of opposing counsel, through electronic mail to
Jaimie Stilz, Deputy Attorney General, 555 E. Washington Ave., Suite 3900, Las Vegas,
Nevada 89101.

/s/ Jonathan M. Kirshbaum
Jonathan M. Kirshbaum

Counsel of Record for Petitioner

Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org

2

